                            OFFICE OF THE INSPECTOR GENERAL
                            CORPORATION FOR NATIONAL AND
                                  COMMUNITY SERVICE




                            PRE-AUDIT SURVEY OF THE
                      WYOMING COMMISSION FOR NATIONAL AND
                              COMMUNITY SERVICE

                                  OIG Audit Report Number 00-35
                                        January 14,2000




                                             Prepared by:

                                            KPMG LLP
                                        200 1 M Street N.W.
                                       Washington, DC 20036

                               Under CNS OIG MOU # 98-046-5003
                                  With the Department of Labor
                                  DOL Contract # J-9-G-8-0022
                                       Task # B9G8V104




This report was issued to Corporation management on May 16, 2000. Under the laws and regulations
governing audit follow up, the Corporation must make final management decisions on the report's findings
and recommendations no later than November 12, 2000, and complete its corrective actions by May 16,
2001. Consequently, the reported findings do not necessarily represent the final resolution of the issues
presented.
                                     Office of Inspector General                               CORPORATION
                           Corporation for National and Community Service                      FOR NATIONAL

                                  Pre-Audit Survey of the
                     Wyoming Commission for National and Community Service
                               OIG Audit Report Number 00-35


Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit entities,
tribes and territories to assist in the creation of full and part time national and community service programs.
Currently, in accordance with the requirements of the Act, the Corporation awards approximately two-thirds
of its AmeriCorps Staternational funds to state commissions. The state commissions in turn fund, and are
responsible for the oversight of, subgrantees who execute the programs. Through these subgrantees,
AmeriCorps Members perform service to meet educational, human, environmental, and public safety needs
throughout the nation.

Thus, state commissions play an important role in the oversight of AmeriCorps programs and expenditures.
The Corporation has indicated that it intends to give them greater responsibility. However, the Corporation
lacks a management information system that maintains comprehensive information on its grants including
those to state commissions and subgrantees. Moreover, although the Corporation began state commission
administrative reviews in 1999, the Corporation, historically, has not carried out a comprehensive, risk-based
program for grantee financial and programmatic oversight and monitoring. It is also unlikely that
AmeriCorps programs are subject to compliance testing as part of state-wide audits under the Single Audit
Act due to their size relative to other state programs.

Therefore, CNS OIG has initiated a series of pre-audit surveys intended to provide basic information on the
state commissions' operations and funding. The surveys are designed to provide a preliminary assessment
of the commissions' pre-award and grant selection procedures, fiscal administration, monitoring of
subgrantees (including AmeriCorps Member activities and service hour reporting), and the use of training
and technical assistance funds. For each survey, we will issue a report to the state commission and to the
Corporation communicating the results and making recommendations for improvement, as appropriate.

We engaged KPMG LLP to perform the pre-audit survey of the Wyoming Commission for National and
Community Service. KPMG S report, which follows, indicates that the Wyoming Commission administers
an open, competitiveprocess to select national sewicesubgrantees, and has establishedpolicies,procedures
and controlsfor fiscal administration, monitoring of subgrantees, and providing them with training and
technical assistance. However, the report recommends improvements in the Commission's selection
process, documentation of grant matching support, review of subgrantee audit reports, and its monitoring
procedures. The report also include recommendations for follow-up on corrective actions by the
Corporationfor National Service, and a limited-scope audit of the Commissionforprogram years 1995-96
through 1998-99.

We have reviewed the report and work papers supporting its conclusions, and we agree with the findings and
recommendations presented. The Wyoming Commission's response is included as Appendix C.




                                                                                            Inspector General
                                                                                            1201 New York Avenue, NW
                                                                                            Washington, DC 20525
                                          Pre-Audit Survey of the
                                    Wyoming Commission for National and
                                            Community Service
                                             Table of Contents



RESULTS IN BRIEF ....................................................................................................................1

BACKGROUND..........................................................................................................................2

OVERVIEW OF THE WYOMING COMMISSION .....................................................................3

OBJECTIVES, SCOPE, AND METHODOLOGY .........................................................................3

FINDINGS AND RECOMMENDATIONS ......................................... . . . . ... . . ... . . . .. . .... . 5

APPENDIX A, COMMISSION FUNDING: 1996-97 THROUGH 1998-99.............................. A.1

APPENDIX B, DETAILED ENGAGEMENT OBJECTIVES AND
   METHODOLOGY ............................................................................................................. B. 1

APPENDIX C, WYOMING COMMISSION FOR NATIONAL AND COMMUNITY
   SERVICE RESPONSE....................................................................................................... C. 1
             2001 M Street, N.W
             Washington, D.C. 20036




January 14,2000



Inspector General
Corporation for National and Community Service:

At your request, KPMG LLP (KPMG) performed a pre-audit survey of the Wyoming
Commission for National and Community Service (the Commission). The primary purpose of
this survey was to provide a preliminary assessment of:

   the adequacy of the pre-award selection process;
   the fiscal procedures at the Commission;
   the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
   Member activities and service hours; and
   the controls over the provision of technical assistance.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Results in Brief

Based on the results of the limited procedures performed, we have made the following
preliminary assessments regarding the Commission's systems for administering its AmeriCorps
grants:

    The Commission administers an open, competitive process to select national service
    subgrantees. However, we identified areas for improvement related to the assessment of
    applicants' financial systems during the selection process.

    The Commission has developed control policies and procedures to administer the
    Corporation's grant funds. However, the Commission does not maintain adequate
    documentation to support its in-kind administrative match amounts.

    The Commission has established controls to evaluate and monitor subgrantees. However, the
    Commission should improve (a) the contents of its program site visit report form and (b) its
    process for determining whether subgrantees have been audited in accordance with Office of
    Management and Budget (OMB) Circular A-133.



                                                                          1

1111           KPMG LLP KPMG LLP a U S l h r e d l~abt y partnership 1s
               a member of KPMG lnternat~onala Swiss assoclatlon
    The Commission has established controls to provide reasonable assurance that training and
    technical assistance is made available and provided to subgrantees.

The section below entitled Findings and Recommendations describes the weaknesses noted
above in further detail and addresses additional issues noted during the survey.

The Commission's AmeriCorps grants have never been tested as part of an OMB Circular A-133
audit. Therefore, based on our preliminary assessments and the relatively low level of funding
the Commission receives annually from the Corporation, we recommend the performance of a
limited scope audit at the Commission for program years 1995-96 through 1998-99, with an
emphasis on the evaluating and monitoring process.

Additionally, we recommend that the Corporation follow up with the Commission to determine
that appropriate corrective actions are put into place to address the conditions reported herein,
and that the Corporation consider these conditions in its oversight and monitoring of the
Commission.

Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State Commissions, nonprofit entities and tribes and territories to assist in the creation of full
and part time national and community service programs. Through these grantees, AmeriCorps
Members perform service to meet the educational, human, environmental, and public safety
needs throughout the nation, especially addressing those needs related to poverty. In return for
this service, eligible Members may receive a living allowance and post service educational
benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps State/National
funds to State Commissions. State Commissions are required to include 15 to 25 voting
members. Each Commission has a responsibility to develop and communicate a vision and ethic
of service throughout its State.

The Commissions provide AmeriCorps funding to approved applicants for service programs
within their states and are responsible for monitoring these subgrantees' compliance with grant
requirements. The Commissions are also responsible for providing training and technical
assistance to AmeriCorps State and National Direct programs and to the broader network of
service programs in the state. The Commissions are prohibited from directly operating national
service programs.

The Corporation's regulations describe standards for financial management systems that must be
maintained by State Commissions. The standards require, in part, that the State Commissions
maintain internal controls that provide for accurate, current, and complete disclosure of the
financial and programmatic results of financially assisted activities, and provide effective control
and accountability for all grant and subgrant cash, real and personal property, and other assets.
Overview of the Wyoming Commission

The Wyoming Commission for National and Community Service, located in Cheyenne,
Wyoming has received AmeriCorps grant funds from the Corporation for National and
Community Service since program year 1994-95. The Commission operates as part of the State
of Wyoming's Department of Health. The Commission has one full-time Executive Director and
a part time assistant.

As part of an agency of the State of Wyoming, the Commission is annually subject to an OMB
Circular A-133 audit performed by the Wyoming State Auditors' Office. However the
Commission's AmeriCorps grants have never been tested as major programs under OMB
Circular A-133.

The Commission provided us with the following information for the last three program years:



                            Total Corporation       Number of
       Program Year             Funding            Sub~rantees*




*   Based solely on dollar value of federal awards passed through the Commission for each
    program year, no Commission subgrantees were subject to OMB Circular A-133 audit
    requirements. However, the subgrantees could be subject to an OMB Circular A-133 audit if
    they received additional federal grant funds from other sources. Because the Commission
    does not maintain documentation of whether subgrantees have been subject to OMB Circular
    A-133 audits, we were unable to determine the number of subgrantees subject to OMB
    Circular A-133 audit requirements.

Appendix A contains more detailed information on funding received from the Corporation during
program years 1996-97 through 1998-99.

Objectives, Scope, and Methodology

We were engaged by the Office of the Inspector General, Corporation for National and
Community Service, to provide an assessment of the systems and procedures in place at the
Commission for administering its AmeriCorps grants and for monitoring the fiscal activity of
subgrantees. The primary purpose of this pre-audit survey was to provide a preliminary
assessment of:

    the adequacy of the pre-award selection process;
    the fiscal procedures at the Commission;
    the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
    Member activities and service hours; and
    the controls over the provision of technical assistance.
We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Our survey included the following procedures:

    reviewing applicable laws, regulations, grant provisions, the Corporation's A Reference
    Manual for Commission Executive Directors and Members, and other information to
    gain an understanding of legal, statutory and programmatic requirements;

    reviewing OMB Circular A-133 reports and current program year grant agreements for the
    Commission;

    obtaining information from Commission management to complete flowcharts documenting
    the hierarchy of AmeriCorps grant funding for program years 1996-97, 1997-98 and 1998-
    99: and

    performing the procedures detailed in Appendix B over the Commission's internal controls,
    selection of subgrantees, administration of grant funds, evaluation and monitoring of grants,
    and the technical assistance process.

As part of the procedures performed, we documented and tested internal controls in place at the
Commission using inquiries, observations, and examination of a limited sample of source
documents. Finally, we summarized the results of our work to develop the findings and
recommendations presented in this report. We discussed all findings with Commission
management during an exit conference on January 28, 2000.

Our procedures were performed in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. We were not engaged to, and did not, perform an
audit of any financial statements, and the procedures described above were not sufficient to
express an opinion on the controls at the Commission, or on its compliance with applicable laws,
regulations, contracts and grants. Accordingly, we do not express an opinion on any such
financial statements, or on the Commission's controls or compliance. Had we performed
additional procedures, other matters might have come to our attention that would have been
reported to you.

We provided a draft of this report to the Commission and the Corporation. The Commission's
response to our findings and recommendations is included as Appendix C. The Corporation did
not respond in writing to our findings and recommendations within the 30-day comment period.
Findings and Recommendations

Selecting Subgrantees

According to A Reference Manual for Commission Executive Directors and Members, Section
3.2, "Commissions are expected to develop a fair and impartial process for reviewing and
selecting applicants for potential funding."

The Commission administers an open, competitive process to select national service subgrantees.
The Commission advertises funding availability through mailing lists, newspapers and
newsletters. In addition, selection officials sign conflict of interest statements annually, receive
an instruction package, and use a standard form to evaluate each applicant. However, we
identified the following area for improvement within the selection process.

        Assessment of Applicants' Financial Systems during the Selection Process

Selection officials do not adequately consider applicants' financial systems during the
Commission's subgrantee selection process. The Commission's procedures include the review
of several criteria prior to giving an award. However, the criteria are primarily focused on
program accomplishments with little or no evaluation of an applicant's financial systems. As a
result, grant funds may be provided to an organization that does not have adequate financial
systems in place to properly account for those funds or is unable to ensure compliance with
related grant requirements.

According to A Reference Manual for commission Executive Directors and Members, section
4.2, Commissions are responsible for maintaining "appropriate financial management systems to
disburse funds and track Commission and program expenditures according to legal and grant
requirements." In order to meet this responsibility, the Commission must be able to ensure that
subgrantees have systems in place to accurately track expenditures, since this information forms
the basis of a majority of Commission expenditure reporting.

        Recommendation

We recommend the Commission improve the effectiveness of its subgrantee selection process as
follows:

    Require applicants to provide information related to their financial systems, and review this
    information during the subgrantee selection process. The review should focus on assessing
    whether the financial systems, as described, would provide reasonable assurance that
    applicants will be able to properly account for grant funds and comply with related grant
    requirements.

Administering Grant Funds

As part of the grant administration process, Commissions must retain staff with appropriate skills
and experience to manage their own organization and their subgrantees; implement policies and
systems that ensure accountability; and maintain appropriate financial management systems to
disburse funds and track Commission and program expenses according to legal and grant
requirements. ( A Reference Manual for Commission Executive Directors and Members, Sections
3.2 and 4.2).

The Commission has developed and implemented procedures that are intended to provide
reasonable assurance that grant funds received from the Corporation are properly administered.
Procedures are in place to withhold funding payments if subgrantees do not submit Financial
Status Reports (FSRs) timely; to manage cash draw downs and disbursements to subgrantees
made by the Wyoming Department of Health as the Commission's fiscal agent; and to ascertain
whether subgrantees have met their matching requirements. The Commission's personnel have
adequate skills and experience to manage and administer Corporation grant funds. However, we
identified the following areas for improvement within the administering process.

        Supporting Documentation for In-kind Match Amounts

Beginning in 1998 (program year 1997-98), Commissions were required to match 50% of the
total costs needed to administer their programs. A large portion of the Wyoming Commission's
match is in the form of in-kind contributions from area businesses and the Wyoming Department
of Health. The Wyoming Department of Health contributes accounting services, office space and
the use of equipment.

According to the OMB Circular A-133 Compliance Supplement, April 1999, one of the basic
criteria for an acceptable match is that amounts are verifiable from the entity's records.
However, the Commission does not maintain adequate documentation to support all its in-kind
match amounts related to the Corporation's Administrative Grant. Without adequate
documentation, the Commission cannot demonstrate that it has met federal matching
requirements.

        Documentation of Review of Supporting Documentation Related to Matching
        Recalculation

Although the Commission's procedures indicate that subgrantees' matching requirements are
reviewed, no evidence exists that the Commission reviews documentation supporting the
subgrantee matching amounts as part of matching recalculation procedures performed during
FSR review or during site visits. Without proper documented review of subgrantee supporting
documentation for matching amounts, errors related to the matching requirement may be
undetected.

        Recommendations

We recommend the Commission improve the effectiveness of its grant administration process as
follows:

    Maintain adequate documentation to support all reported in-kind match amounts.
    Documentation should include detailed records of contributions received (e.g., item
    description, amount, donor and date of contribution) and the methodology used to value
    these contributions.
    Develop and implement procedures to document its review of documentation supporting
    subgrantee matching amounts as part of matching recalculation procedures.
Evaluating and Monitoring Subgrantees

As noted above, the Commission is responsible for evaluating whether subgrantees comply with
legal, reporting, financial management and grant requirements and ensuring follow through on
issues of noncompliance. The Commission has established controls to evaluate and monitor
subgrantees, which include reviewing program and financial reports and scheduling site visits for
each subgrantee during the grant period. Commission personnel use a standard site visit report
form to document results of each visit, and the Commission notifies the subgrantees of the results
of these site visits, including strengths, weaknesses, concerns, recommendations, and any
necessary follow-up requirements. In addition, the Commission evaluates program
accomplishments reported by the subgrantees. However, we identified the following areas for
improvement related to the evaluation and monitoring of subgrantees.

        Content of the Program Site Visit Report Form

As part of the Commission's monitoring process, the Commission uses a standard form to
document the results of each site visit. However, this form does not instruct the evaluator to
perform such tasks as (a) examining for the required elements of a Member file, (b) reviewing
and assessing for adequacy the subgrantee's policies and procedures, (c) reviewing
documentation to support matching requirements, and (d) reviewing for prohibited activities. As
a result, site visits may not be performed consistently across all subgrantees, and significant areas
of controls and compliance may not be addressed.

Although Commission personnel review the subgrantees' AmeriCorps Member timesheets and
expense documentation for proper support and approval during site visits, they do not document
on the program site visit report form which Member timesheets and expense items were
reviewed. In addition, the sample sizes used and the rationale behind these samples are not
documented. As a result, a reviewer (e.g., supervisor) of the site visit documentation is not able
to (1) assess if the sample size selected was adequate and (2) review the same documentation if a
question arose about the results of the test.

        Review of OMB Circular A-133 Audit Reports

OMB Circular A-133 Compliance Supplement, April 1999, Part 6 - Internal Control suggests
that review of and follow-up on subgrantees' audit reports is a key component of a program to
monitor subgrantees' compliance with federal grant requirements. However, the Commission
has not implemented an adequate process for obtaining and reviewing OMB Circular A-133 audit
reports for its subgrantees. According to State policy, the Wyoming Department of Health is
responsible for obtaining OMB Circular A-133 audit reports from all of the State of Wyoming's
subgrantees, including the Commission's subgrantees. Although the Wyoming Department of
Health has procedures to review these reports for findings and follow up as necessary, the review
is not documented, and any follow-up procedures performed by either the Wyoming Department
of Health or the Commission have not been documented.
       Written Policies and Procedures Related to Follow-up on Deficiencies Noted at
       Subgrantees

The Commission has not formalized its policies and procedures for ensuring that subgrantees
correct deficiencies that are identified by the Commission. As a result, the Commission may not
properly or timely ensure the correction of noted subgrantee deficiencies. However, for the two
subgrantees we tested that had identified deficiencies, problems noted by the Commission during
a site evaluation were resolved by the next site evaluation.

        Recommendations

We recommend that the Commission improve its evaluation and monitoring of subgrantees as
follows:

    Enhance its current program site visit report form to more specifically instruct the evaluators
    what procedures to perform and what items to review.

    Revise its current program site visit report form to require documentation of (a) the
    subgrantees' Member timesheets and expense items reviewed during site visits and (b) the
    rationale behind the sample size selection. The Commission's program site visit report form
    could be expanded to include space for such documentation.

    Develop and implement a process for obtaining and following up on OMB Circular A-133
    audit reports for its subgrantees. This process should include documenting, for each of its
    subgrantees, (1) whether an OMB Circular A-133 audit was required to be conducted, (2)
    whether or not the audit was actually conducted, (3) collection and review of the report, and
    (4) follow up procedures performed for missing reports and to resolve reported findings.

    Formalize policies and procedures for ensuring that adequate corrective actions are taken
    when deficiencies are noted by the Commission.

Providing Technical Assistance

The Commission has internal control to provide reasonable assurance that training and technical
assistance is made available and provided to subgrantees. Procedures are in place at the
Commission to ( I ) identify training and technical assistance needs of subgrantees through
discussions with program directors, site visits, quarterly progress reports and an annual needs
assessment; (2) notify subgrantees of training programs; and (3) provide needed training to
subgrantees. We identified no significant areas for improvement within this process.



This report is intended solely for the information and use of the Office of the Inspector General,
the management of the Corporation for National and Community Service, the management of the
Wyoming Commission for National and Community Service, and the United States Congress and
is not intended to be and should not be used by anyone other than these specified parties.
                                 Commission Funding                           Appendix A

The table below and the flowcharts on the following pages depict the Commission's funding over
the past three program years.


         Funding Source and Type

         CNS Formula Grant Funds

         CNS Competitive Grant Funds

         CNS Learn and Serve Funds

         CNS Educational Only Awards

         CNS PDAT Funds

         CNS Administrative Funds

         State Matching Funds

          Total Funding
                            Commission Funding                                          Appendix A




        Corporation for National and Community Service
                         Funding to the
     Wyoming Commission for National and Community Service
                           1996-1997
I                                                                                   I
           I               I                I              I               I
      Formula          Competitive     Learn and        PDAT            All Other
       Funds             Funds           Serve          Funds            Funds
                                         Funds
      $303,393          $215,546        $23,000         $84,000         $121,000
                                                                    -

          v                v               v               v              v

         Total Corporation Funds Available to the Commission
                              $746,939




                       Funds Awarded to Subgrantees
                                $539,639



        Formula                        Competitive                Learn and Serve
      Subgrantees                      Subgrantees                  Subgrantees
       $ 303,393                         $215,546                     $20,700
    # of subgrantees                 # of subgrantees             # of subgrantees
            2                                I                            1
        # of sites
            2

                                   A     # of sites                   # of sites
                                                                           1
                        Commission Funding                                    Appendix A




    Corporation for National and Community Service
                     Funding to the
 Wyoming Commission for National and Community Service
                       1997-1998

       I               I               I               I            I




C Formula
   Funds

  $453,000




      *
                   Competitive
                     Funds

                    $269,238
                                 Learn and
                                   Serve
                                   Funds
                                  $23,000




                                       *
                                                   Funds

                                                  $84,000




     Total Corporation Funds Available to the Commission
                          $896,018
                                                                All Other
                                                                 Funds

                                                                 $66,780




                                                                   v




                   Funds Awarded to Subgrantees
                            $747,849


                           +
                      Competitive          Learn and Serve      Educational
  Subgrantees         Subgrantees            Subgrantees        Award Only
    $453,000            $269,238               $22,611          Subgrantees
# of subgrantees    # of subgrantees       # of subgrantees        $3,000
        3                   1                                 # of subgrantees
    # of sites          # of sites            # of sites
                            I                                    # of sites
                            Commission Funding                                       Appendix A




           Corporation for National and Community Service
                            Funding to the
        Wyoming Commission for National and Community Service
                              1998-1999
I

             I             I                I              I             I
         Formula       Competitive      Learn and       PDAT          All Other
          Funds          Funds            Serve         Funds          Funds
                                          Funds
         $450,000       $239,238         $61,500        $84,000       $6 1,705




            v              v               v               v            v

           Total Corporation Funds Available to the Commission
                                $896,443


                                            T




                       Funds Awarded to Subgrantees
                                $747,107



                                                                         t
          Formula                     Competitive                 Learn and Serve
         Subgrantees                  Subgrantees                   Subgrantees
          $450,000                                                    $57,869
                                     # of subgrantees             # of subgrantees
                                                                          6
    I      #of sites                                                  # of sites
                                                                          6
                                                                  -
                           Detailed Engagement Objectives
                                  and Methodology                                  Appendix B

Znternal Controls

Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: ( I ) permit the preparation
of reliable financial statements and Federal reports; (2) maintain accountability over assets; and
(3) demonstrate compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identified the compliance requirements with a direct
and material effect on the Commission's AmeriCorps grant program, as follows: activities
allowed or unallowed and allowable costs; eligibility; matching; period of availability of
Corporation funds; suspension and debarment; subrecipient monitoring; and reporting by the
Commission to the Corporation. We then interviewed key Commission personnel to assess the
Commission's controls surrounding these requirements.

Selecting Subgrantees

Our objectives were to make a preliminary assessment:

    of the adequacy of the systems and controls utilized by the Commission to select national
    service subgrantees to be included in an application to the Corporation;

    as to whether the Commission evaluated the adequacy of potential subgrantee financial
    systems and controls in place to administer a Federal grant program prior to making the
    award to the subgrantees; and

    as to whether Commission involvement in the application process involved any actual or
    apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
determine if conflict of interest forms for each subgrantee applicant tested were signed by
selection officials annually and maintained by the Commission.

Administering Grant Funds

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to oversee and monitor the performance and progress of funded subgrantees;

    make a preliminary assessment as to whether the Commission's organizational structure and
    staffing level and skill mix are conducive to effective grant administration and whether the
    Commission has a properly constituted membership;
                          Detailed Engagement Objectives
                                 and Methodology                                 Appendix B

   make a preliminary assessment as to whether the Commission provided adequate guidance to
   subgrantees related to maintenance of financial systems, records, supporting documentation,
   and reporting of subgrantee activity;

   make a preliminary assessment of the adequacy of financial systems and documentation
   maintained by the Commission to support oversight of subgrantees and required reporting to
   the Corporation (including Financial Status Reports, enrollment forms and exit forms); and

   determine whether the Commission has procedures in place to verify the accuracy and
   timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports submitted by
subgrantees, as well as Financial Status Reports submitted by the Commission to the
Corporation, to preliminarily assess the accuracy of submitted Financial Status Reports. We also
determined whether the Commission had implemented the Web Based Reporting System
(WBRS).

Evaluating and Monitoring Subgrantees

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission, in conjunction with the Corporation, to implement a comprehensive, non-
    duplicative evaluation and monitoring process for their subgrantees;

    determine whether the Commission has an established subgrantee site visit program in place
    and make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    make a preliminary assessment of the adequacy of the Commission's procedures used to
    assess subgrantee compliance with Corporation regulations (e.g., those governing eligibility
    of Members, service hour reporting, prohibited activities, payment of living allowances to
    Members and allowability of costs incurred and claimed under the grants by subgrantees
    (including reported match));

    make a preliminary assessment of the adequacy of the Commission's procedures for
    obtaining, reviewing and following up on findings included in the subgrantee OMB Circular
    A-133 audit reports, where applicable;

    determine whether program goals are established and results are reported and compared to
    these goals; and

    make a preliminary assessment of the adequacy of the procedures in place to evaluate
    whether subgrantees are achieving their intended purpose.
                          Detailed Engagement Objectives
                                 and Methodology                                  Appendix B

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We reviewed
the documentation to preliminarily assess the adequacy of the procedures performed by the
Commission to assess financial and programmatic compliance and related controls at the sites.
We also determined whether the Commission received and reviewed OMB Circular A-133 audit
reports from subgrantees.

Providing Technical Assistance

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to provide technical assistance to subgrantees and other entities in planning
    programs, applying for funds, and implementing and operating programs;

    determine whether a process is in place to identify training and technical assistance needs;
    and

    determine whether training and technical assistance is provided to identified subgrantees.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to identify and satisfy training needs for the subgrantees and Commission
employees. We also obtained a summary of all training costs incurred during the current year to
ensure they related to training activities that were made available to all subgrantees.
                                                                                                      Appendix C



                                             "SauW w "
                  WYOMING COMMISSION FOR NATIONAL
                        *
                      AND COMMUNITY SERVICE                                                 *
J i m Geringer                                                                         Timothy Johansen, Chair
Governor                                                                               Cathy J. Lyman
                                                                                       Executive Director


          April 24, 2000

          Ms. Luise Jordan
          Inspector General
          Office of Inspector General
          120 1 New York Avenue, N.W.
          Washington, D.C.

          Dear Ms. Jordan:

          Enclosed please find my response on behalf' of the Wyoming Commission for National
          and Community Service to the draft report of the pre-audit s w e y . I have used the blank
          form attached at the end of the draft report. I hope that this is correct.

           If additional information is needed or if I have used the wrong format, please let me
           know so that I can hlly comply with this request for response.

           Yours truly,



           Cathy L ~ * '
           Executive Director


           encl




                  Herschler Building, 1st Floor West, 122 West 25th Street, Room 1608, Cheyenne, W Y 82002
                             Phone: (307) 777-5396 Fax : (307) 638-8967 TDD:(307) 777-7230
                                               EMAIL: clyman @ missc.state.wy.us
                                                                            Appendix C




Selecting Subgrantees

In response to the recommendation that the Commission improve the effectiveness of its
subgrantee selection process by requiring applicants to provide information related to
their financial systems and review this information during the subgrantee selection
process in order to focus on assessing whether the financial systems, as described, would
provide reasonable assurance that applicants will be able to properly account for grant
funds and comply with related grant requirements, the Commission has included the
Corporation for National Service Financial Management Survey appearing on page 5-34
of the State Commission Manual with ad grant application packages and required its
submission with all applications since January 2000. In addition, the Commission's grant
application review forms will maintain its previous organizational capacity category as an
evaluation factor.

Administering Grant Funds

The Wyoming Commission for National and Community Service is responding to the
recommendation that it improve the effectiveness of its grant administration process as
follows:

       Continue use of its in-kind match document that includes a record of contribution
       and the methodology used to value these contributions, and insure its use for any
       and all contributions. The Commission is coordinating its efforts with the
       Wyoming Department of Health (the Commission's fiscal agent) and the
       Wyoming Department of Administration and Information to fhrther document in-
       kind match.
    = Will develop and implement a more detailed and more intensive procedure to
      document its review of documentation supporting subgrantees matching amounts.

Evaluating and Monitoring Subgrantees

The Wyoming Commission for National and Community Service will improve its
evaluation and monitoring of subgrantees by :

        Developing lengthy and detailed instructions to more specifically instruct
        evaluators what procedures to perform and what items to review. This will also
        facilitate the development of revised estimate of the amount of time volunteer
        evaluators such as Commissioners will be advised to set aside for this task.
                                                                           Appendix C

      Revising its current program site visit report form to require documentation of a)
      the subgrantees' Member timesheets and expense items reviewed during site visits
      and b) the rationale behind the sample she selection. Since Wyoming programs
      are typically twenty full time members or less, and since the Auditors were unable
      to offer any guidance as to what would be considered an adequate sample size or
      what method should be used to determine an adequate sample size, the
      Commission assumes that a 100% sample will be required. The site visit report
      form(s) will be expanded to include space for such documentation, and time
      estimates offered to persons traveling to sites for visits will be adjusted
      accordingly. Future plans and budgets will reflect this additional requirement.

       Developing and implementing a process for obtaining and following up on OMB
       Circular A- 133 audit reports for subgrantees in addition to the State of
       Wyoming's process already in place. This procedure will include 1)
       documentation from the State of Wyoming that an OMB Circular A-133 audit is
       or is not required. 2) Should such an audit ever be required, the Commission will
       require written proof that the audit was conducted. 3) The Commission staffwiil
       collect and review the report and 4) perform follow up procedures for missing
       reports and to resolve reported findings. This process will be documented and
       provided to all funded programs. Efforts will be made to change the job
       description for the Commission's Executive Director to reflect the emphasis on
       financial management and review over other hnctions, and the need for extensive
       accounting education or experience

Provide Technical Assistance

The Commission will continue to perform its acceptable procedures for training and
technical assistance. A workshop for all fbnded programs covering financial
management and sustainability to be presented by professionals in the financial
management field is scheduled for September 2000, with subsequent training in these
areas designed to reflect grantees' self assessments and needs made evident through the
Commission's even more extensive review of program documentation, procedures and
records.
